MXH0317-SD

700 Main St.
P.O. Box 3398
Baton Rouge, LA 70821-3398
(800) 522-2748

REWARDS
APPLICATION AND SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

1.99% introductory APR for a period of 12 months on transactions posted to
your account during the first three months following the opening of your
account.

After that, your APR will be 10.75% to 18.00%, based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.
APR for Cash Advances

APR for Balance Transfers

Application of Penalty APR. Your APR may be increased to the disclosed Penalty APR if you are 60 days late in
making a payment.

OTHER DISCLOSURES
Late Payment Fee

0.00% introductory APR for a period of 12 months on transactions posted

18.00%

How to Avoid Paying Interest on Purchases

Your due date is at least 25 days after the close of each billing cycle. We do not
charge you interest on purchases if you pay your entire balance by the due
date each month.

For Credit Card Tips from the Consumer
Financial Protection Bureau

To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

Fees

- Foreign Transaction Fee

$4.00 or 2.00% of the amount of each cash advance, whichever
is greater (Maximum Fee: $100.00 )
1.00% of each multiple currency transaction in U.S. dollars
1.00% of each single currency transaction in U.S. dollars

Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Up to $25.00
Up to $25.00

DLAJD4 (MXC401 CCM003)-e

use your card to make purchases from merchants and others who accept your card. The credit union is not responsible for the refusal of
any merchant or financial institution to honor your card. If you wish to pay for goods or services over the Internet, you may be required
to provide card number security information before you will be permitted to complete the transaction. In addition, you may obtain cash
advances from the Credit Union, from other financial institutions that accept your card, and from some automated teller machines
(ATMs). (Not all ATMs accept your card.) If the credit union authorizes ATM transactions with your card, it will issue you a personal
identification number (PIN). To obtain cash advances from an ATM, you must use the PIN issued to you for use with your card. You agree
that you will not use your card for any transaction that is illegal under applicable federal, state, or local law. Even if you use your card for
an illegal transaction, you will be responsible for all amounts and charges incurred in connection with the transaction. If you are
permitted to obtain cash advances on your account, you may also use your card to purchase instruments and engage in transactions
that we consider the equivalent of cash. Such transactions will be posted to your account as cash advances and include, but are not
limited to, wire transfers and money orders. This paragraph shall not be interpreted as permitting or authorizing any transaction that is
illegal.
3. PROMISE TO PAY — You promise to pay all charges (purchases, cash advances, balance transfers, use of convenience checks or any
other charge) made to your account by you or anyone you authorize to use your account. You also promise to pay all finance charges
and other charges added to your account under the terms of this Agreement or another agreement you made with the Credit Union. If
this is a joint account, the paragraph on JOINT ACCOUNTS also applies to your account.

Effective Date.
The information about the costs of the card described in this application is accurate as of January 1, 2017.
This information may have changed after that date. To find out what may have changed, contact the Credit Union.

Statement Copy Fee
Document Copy Fee
Rush Fee
Pay-by-Phone Fee
Skip Payment

This APR may be applied to the entire balance on your account if you:
- Make a late payment
How Long Will the Penalty APR Apply? If your APRs are increased for any of
these reasons, the Penalty APR will apply until your account is current for six
(6) consecutive months.

©CUNA MUTUAL GROUP, 2009, 10, 12 ALL RIGHTS RESERVED

Loss of Introductory APR. We may end your Introductory APR for purchases and balance transfers and apply the
Penalty APR if you are 60 days late in making a payment.

Returned Payment Fee

After that, your APR will be 10.75% to 18.00%, based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.

Transaction Fees
- Cash Advance Fee

Promotional Period for Introductory APR. The Introductory APR for purchases and balance transfers will apply to
transactions posted to your account during the first three months following the opening of your account. Any existing
balances on current La Capitol Federal Credit Union credit card or loan accounts are not eligible for the promotional
rates.

10.75% to 18.00% when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.

to your account during the first three months following the opening of your
account.

Penalty APR and When it Applies

How We Will Calculate Your Balance. We use a method called “average daily balance (including new purchases).”

$25.00 or the amount of the required minimum payment, whichever
is less, if you are one (1) or more days late in making a payment.
$25.00 or the amount of the required minimum payment, whichever
is less.
$1.00 per page
$5.00
$35.00
$5.00 per payment
$30.00 Fee assessed when accepting skip payment offer.

PRIME PLUS AND REWARDS - CONSUMER CREDIT CARD AGREEMENT
In this Agreement, “Agreement” means this Consumer Credit Card Agreement. “Disclosure” means the Credit Card Account Opening
Disclosure. The Account Opening Disclosure is incorporated into this Consumer Credit Card Agreement and is part of the Agreement. In
this Agreement the words "you," “your,” and "yours" mean each and all of those who agree to be bound by this Agreement; "card" means
the Visa credit card and any duplicates, renewals, or substitutions the Credit Union issues to you; "account" means your Visa credit card
line-of-credit account with the Credit Union; and "Credit Union" means the Credit Union whose name appears on this Agreement or
anyone to whom the Credit Union transfers this Agreement.
1. USING YOUR ACCOUNT — If you are approved for an account, the Credit Union will establish a line of credit for you. You agree that
your credit limit is the maximum amount (purchases, cash advances, finance charges, plus "other charges") which you will have
outstanding on your account at any time. Unless disclosed otherwise, the Credit Union will not allow advances over the credit limit. If
the Credit Union has a program whereby it allows payment of advances that exceed your credit limit, subject to a fee, the Credit Union
will provide you with notice, either orally, in writing, or electronically (notwithstanding the requirements of the paragraph entitled
“Statements and Notices”) explaining your right to opt in to the Credit Union’s program whereby it will honor advance requests over the
credit limit. In the event you opt in to such a program, you agree to the terms of such a program. You may request an increase in your
credit limit only by a method acceptable to the Credit Union. The Credit Union may increase or decrease your credit limit, refuse to
make an advance and/or terminate your account at any time for any reason not prohibited by law. If you are permitted to obtain cash
advances on your account, we may, from time to time, issue convenience checks to you that may be drawn on your account.
Convenience checks may not be used to make a payment on your account balance. If you use a convenience check, it will be posted to
your account as a cash advance. We reserve the right to refuse to pay a convenience check drawn on your account for any reason and
such refusal shall not constitute wrongful dishonor.
You may request that we stop the payment of a convenience check drawn on your account. You agree to pay any fee imposed to stop a
payment on a convenience check issued on your account. You may make a stop payment request orally, if permitted, or in writing. Your
request must be made with sufficient time in advance of the presentment of the check for payment to give us a reasonable opportunity
to act on your request. In addition, your request must accurately describe the check including the exact account number, the payee, any
check number that may be applicable, and the exact amount of the check. If permitted, you may make a stop payment request orally
but such a request will expire after 14 days unless you confirm your request in writing within that time. Written stop payment orders are
effective only for six (6) months and may be renewed for additional six month periods by requesting in writing that the stop payment
order be renewed. We are not required to notify you when a stop payment order expires. If we re-credit your account after paying a
check or draft over a valid and timely stop payment order, you agree to sign a statement describing the dispute with the payee, to
assign to us all of your rights against the payee or other holders of the check or draft and to assist us in any legal action. You agree to
indemnify and hold us harmless from all costs and expenses, including attorney's fees, damages, or claims, related to our honoring your
stop payment request or in failing to stop payment of an item as a result of incorrect information provided to us or the giving of
inadequate time to act upon a stop payment request.

4. PERIODIC RATES — The periodic rates applicable to purchases, cash advances, and balance transfers are disclosed on the Disclosure
that accompanies this Agreement. Any penalty rate that may be imposed for failing to make a payment by the payment due date is also
disclosed on the Disclosure. Any rate change will be made pursuant to applicable law. If the rate for your account is variable, as
indicated on the accompanying Disclosure, the rate charged on purchases, cash advances, balance transfers and any penalty rate will
vary periodically as disclosed in the Disclosure accompanying this Agreement. The initial rate on your account for certain types of
transactions may be an introductory discounted rate (Introductory Rate) that is lower than the rate that would ordinarily apply for that
type of transaction. If an Introductory Rate applies to your account, the rates and the period of time it will be effective is shown on the
Disclosure accompanying this Agreement. After the Introductory Rate period expires, the periodic rate will automatically increase to the
rates that would ordinarily apply for that type of transaction based on the terms of this Agreement.
5. FINANCE CHARGES — New purchases posted to your account during a billing cycle will not incur a finance charge for that billing
cycle if you had a zero or credit balance at the beginning of that billing cycle, or you paid the entire new balance on the previous cycle's
billing statement by the payment due date of that statement; otherwise a finance charge will accrue from the transaction date. To avoid
an additional finance charge on the balance of purchases, you must pay the entire new balance on the billing statement by the
payment due date of that statement. A finance charge begins to accrue on cash advances from the date you get the cash advance or
from the first day of the billing cycle in which the cash advance is posted to your account, whichever is later (transaction date).
The finance charge is calculated separately for purchases and cash advances. For purchases, the finance charge is computed by
applying the periodic rate to the average daily balance of purchases. To calculate the average daily balance of purchases, we take the
beginning outstanding balance of purchases each day, add any new purchases, and subtract any payments and/or credits. This gives us
the daily balance of purchases. We then add all of the daily balances of purchases for the billing cycle together and divide the total by
the number of days in the billing cycle. This gives us the average daily balance of purchases.
For cash advances, the finance charge is computed by applying the periodic rate to the average daily balance of cash advances. To
calculate the average daily balance of cash advances, we take the beginning outstanding balance of cash advances each day, add in any
new cash advances, and subtract any payments and/or credits that we apply to the cash advance balance. This gives us the daily
balance of cash advances. We then add all of the daily balances of cash advances for the billing cycle together and divide the total by
the number of days in the billing cycle. This gives us the average daily balance of cash advances. Balance transfers are calculated in the
same manner as cash advances.
6. FOREIGN TRANSACTIONS — Purchases and cash advances made in foreign currencies will be debited from your account in U.S.
dollars. The exchange rate between the transaction currency and the billing currency used for processing international transactions is a
rate selected by Visa from a range of rates available in wholesale currency markets for the applicable central processing date, which rate
may vary from the rate Visa itself receives or the government-mandated rate in effect for the applicable central processing date. The
exchange rate used on the processing date may differ from the rate that would have been used on the purchase date or cardholder
statement posting date.
A fee (finance charge), calculated in U.S. dollars, will be imposed on all multiple currency foreign transactions, including purchases, cash
advances and credits to your account. A fee (finance charge), calculated in U.S. dollars, will be imposed on all single currency foreign
transactions, including purchases, cash advances and credits to your account. A foreign transaction is any transaction that you complete
or a merchant completes on your card outside of the United States, with the exception of U.S. military bases, U.S. territories, U.S.
embassies or U.S. consulates. The Foreign Transaction Fee is set forth on the Disclosure accompanying this Agreement.

2. USING YOUR CARD — You understand that the use of your credit card or credit card account will constitute acknowledgement of
receipt and agreement to the terms of the Credit Card Agreement and Credit Card Account Opening Disclosure (Disclosure). You may

7. FEES — In addition to the periodic rate, the following additional fees may be imposed on your account. If applicable to your account,
the fee amounts and explanations are disclosed on the Disclosure accompanying this Agreement. Your account may also be subject to
additional fees as set forth on the Disclosure accompanying this Agreement.
a. Foreign Transaction Fee (Finance Charge). If your account is subject to a Foreign Transaction Fee (finance charge), a fee may be
charged to your account for transactions made outside of the United States or in a foreign currency.
b. Late Payment Fee. If your account is subject to a Late Payment Fee, the fee will be charged to your account when you do not make
the required minimum payment by or within the number of days of the statement Payment Due Date set forth on the Disclosure
accompanying this Agreement.
c. Returned Payment Fee. If your account is subject to a Returned Payment Fee, the fee will be charged to your account when a
payment is returned for any reason.
d. Statement Copy Fee. If your account is subject to a Statement Copy Fee, except as limited by applicable law and when the request is
made in connection with a billing error made by the Credit Union, a fee may be charged to your account for each copy of a sales draft or
statement that you request.

©CUNA MUTUAL GROUP, 2009, 10, 12 ALL RIGHTS RESERVED

©CUNA MUTUAL GROUP, 2009, 10, 12 ALL RIGHTS RESERVED

DLAJD4 (MXC401 CCM003)-e

DLAJD4 (MXC401 CCM003)-e

e. Document Copy Fee. If your account is subject to a Document Copy Fee, except as limited by applicable law, a fee may be charged to
your account for each copy of a sales draft or statement that you request (except when the request is made in connection with a billing
error made by the Credit Union).
f. Rush Fee. If your account is subject to a Rush Fee, except as limited by applicable law, a fee may be charged to your account for each
rush card that you request, providing delivery of the card is also available by standard mail service, without paying a fee for delivery.
g. Pay-by-Phone Fee. If your account is subject to the Pay-by-Phone Fee, a fee will be charged for each time you pay a fee by telephone
as disclosed on the Disclosure accompanying this Agreement.
h. Skip Payment Fee. If your account is subject to the Skip Payment Fee, a fee will be charged to your account as disclosed on the
Disclosure accompanying this Agreement.
8. PAYMENTS — Each month you must pay at least the minimum payment shown on your statement by the date specified on the
statement. You may pay more frequently, pay more than the minimum payment or pay the total new balance in full. If you make extra or
larger payments, you are still required to make at least the minimum payment each month your account has a balance (other than a
credit balance). For our Prime Plus, the minimum payment is 2.67% of your total new balance, or $25.00, whichever is greater, plus the
amount of any prior minimum payments that you have not made, all outstanding unpaid fees and charges, and any amount you are
over your credit limit by the date specified on the statement. For our Rewards, the minimum payment is 2.67% of your total new
balance, or $25.00, whichever is greater, plus the amount of any prior minimum payments that you have not made, all outstanding
unpaid fees and charges, and any amount you are over your credit limit by the date specified on the statement. The Credit Union also
has the right to demand immediate payment of any amount by which you are over your credit limit.

15. CREDIT REVIEW AND RELEASE OF INFORMATION — You authorize the Credit Union to investigate your credit standing when
opening or reviewing your account. You authorize the Credit Union to disclose information regarding your account to credit bureaus
and creditors who inquire about your credit standing. If your account is eligible for emergency cash and/or emergency card
replacement services, and you request such services, you agree that we may provide personal information about you and your account
that is necessary to provide you with the requested service(s).
16. RETURNS AND ADJUSTMENTS — Merchants and others who honor your card may give credit for returns or adjustments, and they
will do so by sending the Credit Union a credit slip which will be posted to your account. If your credits and payments exceed what you
owe the Credit Union, the amount will be applied against future purchases and cash advances. If the credit balance amount is $1.00 or
more, it will be refunded upon your written request or automatically after six (6) months.
17. ADDITIONAL BENEFITS/CARD ENHANCEMENTS — The Credit Union may from time to time offer additional services to your
account, such as travel accident insurance, at no additional cost to you. You understand that the Credit Union is not obligated to offer
such services and may withdraw or change them at any time.
18. MERCHANT DISPUTES — The Credit Union is not responsible for the refusal of any merchant or financial institution to honor your
card. The Credit Union is subject to claims and defenses (other than tort claims) arising out of goods or services you purchase with the
card if you have made a good faith attempt but have been unable to obtain satisfaction from the merchant or service provider, and (a)
your purchase was made in response to an advertisement the Credit Union sent or participated in sending to you; or (b) your purchase
cost more than $50.00 and was made in your state or within 100 miles of your home.

What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
La Capitol Federal Credit Union
700 Main St
Baton Rouge, LA 70802
In your letter, give us the following information:
- Account information: Your name and account number.
- Dollar amount: The dollar amount of the suspected error.
- Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a
mistake.
You must contact us:
- Within 60 days after the error appeared on your statement.
- At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is
wrong.

9. PAYMENT ALLOCATION — Subject to applicable law, your payments may be applied to what you owe the Credit Union in any
manner the Credit Union chooses. However, in every case, in the event you make a payment in excess of the required minimum periodic
payment, the Credit Union will allocate the excess amount first to the balance with the highest annual percentage rate and any
remaining portion to the other balances in descending order based on applicable annual percentage rate.

19. JOINT ACCOUNTS — If this is a joint account, each of you will be individually and jointly responsible for paying all amounts owed
under this Agreement. This means that the Credit Union can require any one of you individually to repay the entire amount owed under
this Agreement. Each of you authorizes the other(s) to make purchases or cash advances individually. Any one of you may terminate the
account and the termination will be effective as to all of you.

You must notify us of any potential errors in writing [or electronically]. You may call us, but if you do we are not required to investigate
any potential errors and you may have to pay the amount in question.

10. SECURITY INTEREST — You grant the Credit Union a security interest under the Uniform Commercial Code and under any common
law rights the Credit Union may have in any goods you purchase. If you give the Credit Union a specific pledge of shares by signing a
separate pledge of shares, your pledged shares will secure your account. You may not withdraw amounts that have been specifically
pledged to secure your account until the Credit Union agrees to release all or part of the pledged amount.

20. EFFECT OF AGREEMENT — This Agreement is the contract which applies to all transactions on your account even though the sales,
cash advances, credit or other slips you sign or receive may contain different terms.

When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

Your Account is secured by all other shares you have in any individual or joint account with the Credit Union, except for shares
in an Individual Retirement Account or in any other account that would lose special tax treatment under state or federal law if
given as security. These other shares may be withdrawn unless you are in default under this agreement. You authorize the
Credit Union to apply the balance in your individual or joint share accounts to pay any amounts due on your Account if you
should default.

22. STATEMENTS AND NOTICES — Statements and notices will be mailed to you at the appropriate address you have given the Credit
Union. Notice sent to any one of you will be considered notice to all.

Collateral securing other loans you have with the Credit Union may also secure this loan, except that a dwelling will never be considered
as security for this account, notwithstanding anything to the contrary in any other agreement.
11. DEFAULT — You will be in default if you fail to make any minimum payment or other required payment by the date that it is due.
You will be in default if you break any promise you make under this Agreement. You will be in default if you die, file for bankruptcy or
become insolvent, that is, unable to pay your obligations when they become due. You will be in default if you make any false or
misleading statements in any credit application or credit update. You will also be in default if something happens that the Credit Union
believes may substantially reduce your ability to repay what you owe.
When you are in default, the Credit Union has the right to demand immediate payment of your full account balance without giving you
notice. If immediate payment is demanded, you agree to continue paying finance charges at the periodic rate charged before default,
until what you owe has been paid, and any shares that were given as security for your account may be applied towards what you owe.
12. LIABILITY FOR UNAUTHORIZED USE-LOST/STOLEN CARD NOTIFICATION — You agree to notify us immediately, orally or in
writing, at 700 Main St., Baton Rouge, LA 70802 or telephone (800) 449-7728 seven (7) days a week, 24 hours a day, of the loss, theft, or
unauthorized use of your credit card. You may be liable for the unauthorized use of your credit card. You will not be liable for
unauthorized use that occurs after you notify us of the loss, theft, or possible unauthorized use. You will have no liability for
unauthorized purchases made with your credit card, unless you are grossly negligent in the handling of your card. In any case, your
liability will not exceed $50.00.
13. CHANGING OR TERMINATING YOUR ACCOUNT — As permitted by law, the Credit Union may change the terms of this Agreement
and any attached Disclosure from time to time. Notice of any change will be given in accordance with applicable law. If permitted by
law and specified in the notice to you, the change will apply to your existing account balance as well as to future transactions.

21. NO WAIVER — The Credit Union can delay enforcing any of its rights any number of times without losing them.

23. SEVERABILITY AND FINAL EXPRESSION — This Agreement and the Disclosure are the final expression of the terms and conditions
of your account. This written Agreement and Disclosure may not be contradicted by evidence of any alleged oral agreement. Should
any part of this Agreement or the Disclosure be found to be invalid or unenforceable, all other parts of this Agreement and Disclosure
shall remain in effect and fully enforceable to the fullest extent possible
under this Agreement.
25. GAMBLING TRANSACTIONS PROHIBITED — You may not use your card to initiate any type of gambling transaction.
26. PENALTY RATE DISCLOSURES — If applicable to your account, all rates for your account, including the rates for purchases, cash
advances, and balance transfers, will increase to the Penalty Rate when you meet one or more of the conditions as set forth in the
Disclosure accompanying this Agreement. Any rate increases applied to your account are subject to applicable notice requirements.
Please refer to the Disclosure for additional information regarding the Penalty Rate.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to
pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been settled
between us.

27. VOLUNTARY PAYMENT PROTECTION — We may offer Voluntary Payment Protection to you. Voluntary Payment Protection is not
necessary to obtain credit. If you purchase Voluntary Payment Protection from us, you authorize us to add the fees or insurance charges
monthly to your loan balance and charge you interest on the entire balance. At our option we will change your payment or the period
of time necessary to repay the loan balance. The rate used to determine the fees or insurance charges may change in the future. If the
rate changes, we will provide any notices required by applicable law.

If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.

24. COPY RECEIVED — You acknowledge that you have received a copy of this Agreement and Disclosure.

28. NOTICE TO UTAH BORROWERS — This written agreement is a final expression of the agreement between you and the Credit
Union. This written agreement may not be contradicted by evidence of any oral agreement.
29. THE FOLLOWING IS REQUIRED BY VERMONT LAW — NOTICE TO CO-SIGNER — YOUR SIGNATURE ON THIS NOTE MEANS THAT
YOU ARE EQUALLY LIABLE FOR REPAYMENT OF THIS LOAN. IF THE BORROWER DOES NOT PAY, THE LENDER HAS A LEGAL RIGHT
TO COLLECT FROM YOU.

DLAJD4 (MXC401 CCM003)-e

Your Rights if You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in
good faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due on the
purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on
an advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing [or electronically]
at:
La Capitol Federal Credit Union
700 Main St
Baton Rouge, LA 70802

The card or cards you receive remain the property of the Credit Union and you must recover and surrender to the Credit Union all cards
upon request or upon termination of this Agreement whether by you or the Credit Union. If this is a joint account, the paragraph on
JOINT ACCOUNTS of this Agreement also applies to termination of the account.

©CUNA MUTUAL GROUP, 2009, 10, 12 ALL RIGHTS RESERVED

While we investigate whether or not there has been an error:
- We cannot try to collect the amount in question, or report you as delinquent on that amount.
- The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
- While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
- We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
- If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
- If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We
will send you a statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do
not pay the amount we think you owe.

Either you or the Credit Union may terminate this Agreement at any time, but termination by you or the Credit Union will not affect your
obligation to pay the account balance plus any finance and other charges you owe under this Agreement. Your obligation to pay the
account balance plus any finance and other charges you owe under this agreement are subject to all applicable laws and regulations
regarding repayment requirements. You are also responsible for all transactions made to your account after termination, unless the
transactions were unauthorized.

14. CHANGING OR TERMINATING AUTHORIZED USERS — Upon your request, we may issue additional cards for authorized users that
you designate. You must notify us in writing of any termination of an authorized user's right to access your account. Your letter must
include the name of the authorized user and your account number and/or any subaccount number issued to the authorized user along
with the authorized user's card and any convenience or other access checks issued to the authorized user. If you cannot return the
authorized user's card or access checks and if you request your account to be closed, we will close your account and you may apply for a
new account.

What Will Happen After We Receive Your Letter

While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as
delinquent.
Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
©CUNA MUTUAL GROUP, 2009, 10, 12 ALL RIGHTS RESERVED

DLAJD4 (MXC401 CCM003)-e

©CUNA MUTUAL GROUP, 2009, 10, 12 ALL RIGHTS RESERVED

DLAJD4 (MXC401 CCM003)-e

